                            Office of the Inspector General
                   Corporation for National and Community Service




                                      Audit of
                 Corporation for National and Community Service
                  Cooperative Agreement No. 96CA000001 with
                           Walker & Company, LLP

                          OIG Audit Report Number 00-03
                               September 13,1999




                                         Prepared by:
                                   Cotton & Company, LLP
                               333 North Fairfax Street, Suite 401
                                  Alexandria, Virginia 223 14


                                 Under Department of State OIG
                             Contract # S-OPRAQ-99D-0021 -CNS-04




This report was issued to Corporation management on November 30,1999. Under the
laws and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
May 29,2000, and complete its corrective actions by November 30,2000. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                              Office of the Inspector General                               CORPORATION
                      Corporation for National and Community Service                        FOR NATIONAL

                      Corporation for National and Community Service
                       Cooperative Agreement No. 96CA000001 with
                                Walker & Company, LLP
                            (OIG Audit Report Number 00-03)

Cotton & Company, LLP under contract to the Office of the Inspector General, audited the amounts
claimed by Walker & Company, LLP under Cooperative Agreement No. 96CA000001. The audit
covered the costs claimed during the period from May 28, 1996 to April 30, 1998, the period of the
agreement. The audit included tests to determine whether costs reported to the Corporation were
documented and allowable in accordance with the terms and conditions of the agreement. We
reviewed the report and work papers supporting its conclusions and agree with the findings and
recommendations presented.

The auditors questioned $276 per diem amounts claimed under the cooperative agreement that were
above the allowable Federal Travel Regulation limits. The auditors also found that Walker &
Company, LLP did not limit requests for cash advances to its immediate cash needs.

The auditors cited two material weaknesses in Walker & Company, LLP's internal control structure.
First, Walker & Company, LLP does not have adequate timekeeping procedures. In their review of
140 employee time sheets, the auditors noted that nine did not contain supervisory approval; seven
were not signed by the employees; and corrections on 26 of the reports were not initialed by the
employee or supervisor. Second, Walker & Company, LLP does not have adequate procedures
related to travel expense reports. In their review of 32 employee travel expense reports, the auditors
noted that six did not contain supervisory approval, corrections on four of the reports were not
initialed by the employee or supervisor; and one was not signed by the employee.

Additional information on the questioned cost as well as the compliance and internal control findings
are discussed in detail in this report.

We provided a draft of this report to Walker & Company, LLP and the Corporation. In its response,
Walker & Company, LLP disagreed with the findings. Walker & Company, LLP's response is
included as Appendix A and included after each finding as appropriate. In its response, the
Corporation stated that it had reviewed the draft but did not have specific comments at this time.
The Corporation's response to a draft of this report is included as Appendix B.




                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
                    OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        AUDIT REPORT NO. 00-03

                              AUDIT OF
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              COOPERATIVE AGREEMENT NO. 96CA000001 WITH
                       WALKER & COMPANY, LLP


                                       CONTENTS

                                                             Page

Transmittal Letter                                             1

Results in Brief                                               1

Independent Auditors' Opinion                                  3

Schedule of Cooperative Agreement Costs                        5

Independent Auditors' Report on Compliance                     7

Independent Auditors' Report on Internal Control Structure    10

Appendices
   Appendix A-Walker & Company, LLP' s Response
   Appendix B-The Corporation's Response
                                                               ll.\\,ll >           1 h,CL\ c:I1l:,
                                                                            1- c<)-r-i              c(-,I:hl

                       ~ , CFE, CCJhI
C I ~ M 5I H a \ ~ l uCI'A,                 I ( I L" GII I I \~,II (:1',4,
                                        ~ I IH.-\I                             C I I'              C \I 1-11   INN   .I Nt I< I :I   1,   (:I9   \n'~t\\'   11 IHNSOI\, CI'A, CC,Fh,I




                                                                     September 13, 1999


            Inspector General
            Corporation for National and Community Service

                  We audited costs claimed by Walker & Company, LLP to the Corporation for National
            and Community Service under Cooperative Agreement No. 96CA000001 for the period May
            28, 1996, through April 30, 1998, the period of the award. Under this time-and-materials
            agreement, Walker & Company, LLP assumed primary responsibility for financial
            management training and technical assistance for the AmeriCorps State Commissions and
            National Directs, Learn and Serve America Grantees, and National Senior Service Corps
            Grantees.

                    The audit objectives were to determine if: (1) costs claimed were allowable and were
             incurred for actual contract effort, adequately supported, and charged in accordance with
             Walker & Company, LLP's cost accounting system, contract terms, applicable laws and
             regulations including the Federal Acquisition Regulation, and applicable cost accounting
             standards; (2) Walker & Company, LLP complied with contract terms and conditions; and (3)
             Walker & Company, LLP's accounting system and system of internal accounting control were
             adequate for purposes of this contract.

                    We performed the audit in accordance with generally accepted auditing standards and
             Government Auditing Standards issued by the Comptroller General of the United States. Those
             standards require that we plan and perform the audit to obtain reasonable assurance about
             whether the amounts claimed against the cooperative agreement, as presented in the Schedule
             of Cooperative Agreement Costs, are free of material misstatement. An audit includes
             examining, on a test basis, evidence supporting the amounts and disclosures in the Schedule.
             An audit also includes assessing the accounting principles used and significant estimates made
             by the auditee, as well as evaluating the overall financial schedule presentation. We believe
             our audit provides a reasonable basis for our opinion.

                                                                    RESULTS IN BRIEF

              Costs Claimed

                      We questioned $276 of the $233,422 claimed under the Cooperative Agreement. As
              described in the Schedule of Cooperative Agreement Costs, claimed costs of Walker &
              Company, LLP included per diem amounts above the allowable Federal Travel Regulation
              limits.
       The Schedule of Cooperative Agreement Costs provides additional information on these
questioned costs based on the results of our audit.

Compliance

       The results of our tests of compliance regarding claimed costs disclosed two material
instances of noncompliance for which we are recommending corrective action. Walker &
Company, LLP did not limit requests for cash advances to its immediate cash needs and
claimed per diem expenses in excess of amounts allowed per the Federal Travel Regulations.

Internal Control

        We noted two matters involving Walker & Company, LLP's internal control structure
and its operations that we consider material weaknesses under standards established by the
American Institute of Certified Public Accountants. First, Walker & Company, LLP does not
have adequate timekeeping procedures. In our review of 140 employee tirnesheets, we noted
that nine did not contain supervisory approval; seven were not signed by the employees; and
corrections on 26 of the reports were not initialed by the employee or supervisor. In addition,
Walker & Company, LLP does not have adequate procedures related to travel expense reports.
In our review of 32 employee travel expense reports, we noted that six did not contain
supervisory approval; corrections on four of the reports were not initialed by the employee or
supervisor; and one was not signed by the employee.

Response to Draft Report

        In its response, Walker & Company, LLP disagreed with all of the findings. Walker &
Company, LLP's response is included as Appendix A. Walker & Company, LLP responses to
specific findings are included after each finding, as appropriate. The Corporation's response to
the draft report is included as Appendix B. In its response, the Corporation stated that it
reviewed the draft report, but did not have specific comments at this time.

                                            COTTON & COMPANY, LLP
                                       September 13, 1999


Inspector General
Corporation for National and Community Service

                           INDEPENDENT AUDITORS' OPINION

       We audited the costs claimed by Walker & Company, LLP to the Corporation for
National and Community Service under Cooperative Agreement No. 96CA000001 for the
period May 28, 1996, through April 30, 1998, the period of the award. Costs claimed are
summarized in the Schedule of Cooperative Agreement Costs. Costs claimed as summarized in
the Schedule are the responsibility of the management of Walker & Company, LLP. Our
responsibility is to express an opinion on costs shown in the Schedule based on our audit.

        We conducted our audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance that the
financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting amounts and disclosures in the financial schedules. It also includes
assessing accounting principles used and significant estimates made by management, as well as
evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion on costs claimed.

       This Schedule is intended to present allowable costs incurred under the contract in
accordance with the Federal Acquisition Regulation and contract terms and conditions.
Therefore, it is not intended to be a complete presentation of the revenues and expenses of
Walker & Company, LLP.

       In our opinion, except for questioned costs in the schedule, the Schedule of Cooperative
Agreement Costs, referred to above presents fairly, in all material respects, costs claimed by
Walker & Company, LLP as these costs relate to the Cooperative Agreement for the audit
period May 28, 1996, through April 30, 1998, in conformity with the Federal Acquisition
Regulation and agreement terms and conditions.




                                                     3
   7031836.670 1   FAX 7031836-0941   H?TI'   NWVWCOTTONCIA ( Ohl   E-I\IAIL ~XOTTON@COTTONCPA
                                                                                             COhl
      In accordance with Government Auditing Standards, we have also issued reports dated
September 13, 1999, on our consideration of the internal control structure of Walker &
Company, LLP and on its compliance with laws and regulations.

      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Walker & Company, LLP.


                                           COTTON & COMPANY, LLP




                                            ichael W. Gille ie, CPA
          :         :         y        B
FINANCIAL SCHEDULE
                        SCHEDULE OF COOPERATIVE AGREEMENT COSTS

                         Corporation for National and Community Service
                       Cooperative Agreement With Walker & Company, LLP
                             Cooperative Agreement No. 96CA000001
                               May 28, 1996, through April 30, 1998



              Category                            Claimed Costs                  Questioned Costs                 Notes

Direct Labor                                          $219,063

Travel and Other Direct Costs                            16,670

Costs Incurred In Excess of
Costs Claimed

Total




 " Total claimed costs agree with total expenditures reported on the Federal Cash Transactions Report (FCTR) for the quarter
 ended June 30, 1998, and the net payments to Walker & Company, LLP. Claimed Direct Labor and Travel and Other Direct
 Costs reported above are taken directly from the books of account of Walker & Company, LLP.
     NOTES TO THE SCHEDULE OF COOPERATIVE AGREEMENT COSTS


1.   Claimed costs of Walker & Company, LLP included $276 of per diem expenses in
     excess of amounts allowed per the Federal Travel Regulations. FAR 3 1.205-46, Travel
     Costs, states that costs for lodging, meals, and incidental expenses are allowable if they
     do not exceed on a daily basis the maximum per diem rates in effect at the time of
     travel as set forth in the Federal Travel Regulations.


2.   Net disbursements reported on the June 30, 1998, Federal Cash Transactions Report
     were $2,311 less than costs recorded on the books of account of Walker & Company,
     LLP. Costs incurred differed from expenditures reported, because incorrect billing
     rates were used. Incorrect rates were initially used for some employees, and one
     employee was promoted from a senior to a manager position. The billing rates were not
     corrected in the accounting records until after the agreement's final expenditure reports
     were submitted.
INDEPENDENT AUDITORS' REPORTS ON COMPLIANCE
      AND INTERNAL CONTROL STRUCTURE
                                             COTTON &                                                                                                   Y
                                                                                  l)\\ll)l   ~ ~ ~ I I O N , ~ ~ ~ ' , ~ , ~ ~ - ~ ~ , ( ~ ( ~ ~ ~ - ~ I

       1.5 tlsj \Y,\I:I), CI'A, CFE, CGFhI
CI+,.\I~                                           hllc 1-1   \I I   'V CII I I      ,   Cm\ U - L            C,AII 11 IWKI 1. Ni I <   I I<1, (:I1;\                   H !(>I-INSON. CI'A, CC,Fhl
                                                                                                                                                            ~I-\VI..I-I+I-\\~




                                                                                         September 13, 1999


              Inspector General
              Corporation for National and Community Service

                                         INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

                     We audited costs claimed by Walker & Company, LLP to the Corporation for National
              and Community Service under Cooperative Agreement No. 96CA000001 for the period May
              28, 1996, through April 30, 1998, the period of the award, and have issued our report thereon
              dated September 13, 1999.

                     We conducted our audit in accordance with generally accepted auditing standards and
              Government Auditing Standards issued by the Comptroller General of the United States. These
              standards require that we plan and perform the audit to obtain reasonable assurance that the
              financial schedules are free of material misstatement.

                      Compliance with applicable laws and regulations related to the contracts is the
              responsibility of the management of Walker & Company, LLP. As part of obtaining reasonable
              assurance that costs are free of material misstatements, we performed tests of compliance with
              certain provisions of laws and regulations related to the contracts. Our objective was not,
              however, to provide an opinion on overall compliance with such provisions. Accordingly, we
              do not express such an opinion.

                      The results of our tests of compliance regarding claimed costs disclosed two material
               instances of noncompliance that are required to be reported herein under Government Auditing
               Standards.

               1.           Walker & Company, LLP did not limit requests for cash advances to its immediate cash
                            needs. Cumulative advances received exceeded expenditures of Walker & Company,
                            LLP in 11 of the 23 months of the agreement period. In addition, Walker & Company,
                            LLP requested and received an $8,000 payment in June 1998, although the agreement
                            expired April 30, 1998. Further, advances exceeded expenditures at that time by over
                            $2,000. On August 26, 1998, Walker & Company, LLP returned $12,645 of excess
                            cash received to the Government. Article 6.b. of the General Provisions, of the
                            Cooperative Agreement, states that advances must be based on immediate cash needs to
                            minimize Federal cash on hand in accordance with policies established by the Treasury
                            Department in 3 1 CFR Part 205.

                     7031836 670 1           FAX 7031836-0941                0      HTTI'    //\v\v\v COTTONCPA COhl          0    E - ~ I N L UCOTTON@COTTONCI'A           COhl
     We recommend that the Corporation direct Walker & Company, LLP to limit requests
     for advances to immediate cash needs.

     Walker & Company, LLP Comments. In its response to the draft report, Walker &
     Company, LLP stated that it's original cooperative agreement with the Corporation,
     scheduled to expire in 1997, was extended through May 31, 1998. Walker &
     Company, LLP continued to provide training and technical assistance to the
     Corporation's grantees during negotiation of the extension and drew funds to cover
     expenditures through May 31, 1998. Walker & Company, LLP further stated that in
     August 1998, it entered into a new cooperative agreement with the Corporation, but the
     Corporation decided that the new agreement would be retroactive to May 1, 1998
     Walker & Company, LLP also stated the funds drawn from the Department of Health
     and Human Services Payment Management System during June covered expenditures
     incurred through May 3 1, 1998, and estimated for June 1998.

     Auditors' Additional Comments. Amendment No. 2 to the Cooperative Agreement
     only extended the period of performance to April 30, 1998. Accordingly, Walker &
     Company, LLP had no authority to request advances after that date under the old
     agreement. Advances after May 1, 1999, should have been drawn against the new
     cooperative agreement and were not. In addition, Walker & Company, LLP's response
     does not explain why cash advances were not limited to immediate cash needs in other
     periods or explain whether corrective action was taken to prevent this from happening
     on any current or future agreements.

2.   Claimed costs of Walker & Company, LLP included per diem expenses in excess of
     amounts allowed per the Federal Travel Regulations.

     We recommend that the Corporation direct Walker & Company, LLP to limit claimed
     costs to those allowable under applicable cost principles and agreement provisions.

     Walker & Company, LLP Comments. In its response to the draft report, Walker &
     Company, LLP stated that although the audit indicated that there were per diem
     expenses in excess of amounts allowed per Federal Travel Regulations, the occurrences
     were outside of its control. Walker & Company, LLP further stated that the timing and
     location of training provided to the Corporation's grantees is based primarily on
     grantee's request and are typically held in central locations, often a hotel. In the
     instances noted in the audit, Walker & Company, LLP stated that it opted to have its
     employees stay in the training location to effectively serve the training needs of the
     grantee.

      Auditors' Additional Comments. FAR 31.205-46 limits allowable costs that a
      contractor can claim to the maximum per diem rates set forth in the Federal Travel
      Regulations. If Walker & Company, LLP opted to incur per diem costs in excess of
      allowable amounts it did so at its own risk and should not claim those costs without the
      advance written approval of the contracting officer.
        We considered the above material instances of noncompliance in forming our opinion
on whether costs claimed by Walker & Company, LLP under the Cooperative Agreement for
the period May 28, 1996, through April 30, 1998, are presented fairly, in all material respects,
pursuant to contract terms and conditions and the Federal Acquisition Regulation. Because of
the material instances of noncompliance and matters described in the Schedule of Cooperative
Agreement Costs, our opinion on the Schedule is qualified.

      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Walker & Company, LLP.


                                            COTTON & COMPANY, LLP



                                        By:
                                          pichael' W. ~ i l l e s p k CPA
                                                                      ,
                   COTTON&                                  PANY


                                     September 13, 1999


Inspector General
Corporation for National and Community Service

  INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL STRUCTURE

       We audited costs claimed by Walker & Company, LLP to the Corporation for National
and Community Service under Cooperative Agreement No. 96CA000001 for the period from
May 28, 1996, through April 30, 1998, the period of the award, and have issued our report
thereon dated September 13, 1999.

       We conducted our audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance that the
financial schedules are free of material misstatement.

         The management of Walker & Company, LLP is responsible for establishing and
maintaining an internal control structure. In fulfilling this responsibility, estimates and
judgments by management are required to assess expected benefits and related costs of internal
control structure policies and procedures. The objectives of an internal control structure are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition, and that transactions are executed in
accordance with management's authorization and recorded properly to permit the preparation
of financial schedules in accordance with generally accepted accounting principles. Because of
 inherent limitations in any internal control structure, errors or irregularities may nevertheless
 occur and not be detected. Also, projection of any evaluation of the structure to future periods
 is subject to the risk that procedures may become inadequate because of changes in conditions
 or that the effectiveness of the design and operation of policies and procedures may deteriorate.

       In planning and performing our audit, we obtained an understanding of the internal
control structure of Walker & Company, LLP. We obtained an understanding of the design of
relevant policies and procedures and whether they have been placed in operation; we assessed
control risk to determine our auditing procedures for the purpose of expressing an opinion on
claimed costs and not to provide an opinion on the internal control structure. Accordingly, we
do not express such an opinion.
        We noted two matters involving the internal control structure and its operations that we
consider reportable conditions under standards established by the American Institute of
Certified Public Accountants. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal control structure
that, in our judgment, could adversely affect an organization's ability to record, process,
summarize, and report financial data consistent with the assertions of management in the
financial schedules. The reportable conditions follow.

1.     Walker & Company, LLP does not have adequate timekeeping procedures. In our
       review of 140 employee timesheets, we noted that nine did not contain supervisory
       approval, seven were not signed by employees, and corrections on 26 were not initialed
       by the employee or supervisor. Article 4.c. of the General Provisions, of the
       Cooperative Agreement states that salaries and wages charged directly to the agreement
       must be supported by timesheets signed by the employee. Sound internal controls
       dictate that, at a minimum, employees and supervisors initial all timesheet changes.

       We recommend that the Corporation direct Walker & Company, LLP to require
       employees and supervisors to sign all timesheets and initial all timesheet changes.

       Walker & Company, LLP Comments. In its response to the draft report, Walker &
       Company, LLP stated that its policies and procedures require employees and
       supervisors sign and initial all timesheets and any changes thereto. Walker &
       Company, LLP further stated that during the preparation of its quarterly Financial
       Status Reports, it reconciled the timesheets to the time reporting system and to the
       detail activities performed during the period to ensure that all time charged per the
       Cooperative Agreement was proper. Walker & Company, LLP also stated that because
       it has an established policy and procedure for timesheet preparation, approval and
       review for billing, the exceptions noted, though reportable conditions, are not, in its
       opinion, material weaknesses.

        Auditors' Additional Comments.          Walker & Company, LLP's response did not
        explain why timesheets were not signed or approved and did not indicate that any
        corrective action has been taken. The failure to ensure that employees and supervisors
        sign and initial all timesheets and any changes is a material internal control weakness
        because errors or irregularities could occur and not be detected.

2.      Walker & Company, LLP does not have adequate procedures related to travel expense
        reports. In our review of 32 employee travel expense reports, we noted that six did not
        contain supervisory approval, corrections on four were not initialed by the employee or
        supervisor, and one was not signed by the employee. Sound internal controls dictate
        that, at a minimum, employees and supervisors sign all travel expense reports and
        initial all changes.

        We recommend that the Corporation direct Walker & Company, LLP to require
        employees and supervisors to sign all expense vouchers and initial all changes.
       Walker & Company, LLP Comments. In its response to the draft report, Walker &
       Company, LLP stated that its policies and procedures require employees and
       supervisors to sign all expense vouchers and initial all changes. Walker & Company,
       LLP further stated that the exceptions identified, although a reportable condition, did
       not result in material misstatement of charges of travel expenses under the Cooperative
       Agreement and that it has instituted a final review process by a member of senior
       management under which expense vouchers will be scrutinized for proper signatures
       and support.

       Auditors' Additional Comments. Walker & Company, LLP stated that exceptions
       identified did not result in material misstatement of charges of travel expenses under the
       Cooperative Agreement. The finding in the report did not state that charges were
       misstated, only that the failure to ensure that employees and supervisors sign and initial
       all expense vouchers and any changes is a material internal control weakness.

        We believe the matters described above are material weaknesses. A material weakness
is a reportable condition in which the design or operation of one or more of the specific
internal control elements does not reduce to a relatively low level the risk that errors or
irregularities in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control
structure would not necessarily disclose all matters in the internal control structure that might
be material weaknesses under standards established by the American Institute of Certified
Public Accountants.

      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Walker & Company, LLP.


                                             COTTON & COMPANY, LLP
          APPENDIX A


WALKER & COMPANY, LLP'S RESPONSE
                                                                                              Cemj5ed Public Accountants
                                                                                                e: Management Cor~dtants
                                                                                                     Ronald P. Walker, CPA
                                                                                                   Jacqueline L. Gosby,CPA
WALKER 8: COMPANY,L I P
                                                                                                   Charles E. Countee, CMC


                                                          November 12,1999


         Mr. Michael Gillespie, CPA
         Cotton & Company
         Certified Public Accountants, LLP
         333 North Fairfax Street, Suite 401
         Alexandria, Virginia 223 14

          Subject:        Audit of Corporation for National Service
                          Cooperative Agreement No. 96CAOOOOO1

          Dear Mr. Gillespie:

          Enclosed are our comments to the findings in the draft report of the subject audit. Please
          call if you have any questions.


          Sincerely,



          ~ o n a l P.
                    d Walker, CPA




                             5100 Wisconsin Avenue, N.W., Suite 407, Washington, D.C. 20016
                                         (202) 363-9300 FAX (202) 363-0531
                                    Walker & Company, LLP
                               Response to Draft Audit Report
                               Corporation for National Service
                            Cooperative Agreement No. 96CA000001


Material instances of noncompliance

1. Walker & Company, LLP, did not limit requests for cash advances to its immediate cash
   needs. Cumulative advances received exceeded expenditures of Walker & Company, LLP,
   in 11 of 23 months of the agreement period. In addition, Walker & Company, LLP,
   requested and received an $8,000 payment in June 1998, although the agreement expired
   April 30,1998. Further, advances exceeded expenditures at that time by over $2,000. On
   August 26, 1998, Walker & Company, LLP, returned $12,645 of excess cash received to the
   Government. Article 6.b. of the General Provisions, of the Cooperative Agreement, states
   that advances must be based on immediate cash needs to minimize Federal cash on hand in
   accordance with policies established by the Treasury Department in 31 CFR Part 205.

Walker & Company, LLP Response

Our original cooperative agreement with the Corporation for National Service (CNS) that was
scheduled to expire in 1997 was extended through May 31, 1998. The Firm continued to provide
training and technical assistance to the Corporation's grantees during negotiation of the
extension. We drew funds to cover our expenditures through May 31, 1998. In August 1998,
the Finn entered into a new cooperative agreement with the Corporation, but the Corporation
decided that the new agreement would be retroactive to May 1, 1998. Therefore, the hnds
drawn from the Department of Health and Human Services Payment Management System during
June covered proper expenditures incurred through May 3 1,1998 and estimated for June, 1998.
Such draw-downs exceeded the costs incurred through April 30, 1998.

2. Claimed Costs of Walker & Company, LLP, included per diem expenses in excess of
   amounts allowed per the Federal Travel Regulations.

 Walker & Company, LLP Response

Although the audit indicated that there were per diem expenses in excess of amounts allowed per
Federal Travel Regulations, the occurrences were outside of the Firm's control. The timing and
location of training provided to the Corporation's grantees, is based primarily on grantee's
request. These training sessions are typically held in a central location, often a hotel. We
respond to both CNS's and the grantee's hotel assignment and must incur whatever
governmental or non-governmental rate is applicable. In the instances noted we opted to stay in
the training location rather than at an off-site facility to effectively serve the training needs of the
grantee.
                                 Walker & Company, LLP
                              Response to Draft Audit Report
                              Corporation for National Service
                           Cooperative Agreement No. 96CA000001


Reportable Conditions Involving the Internal Control Structure

1. Walker & Company, LLP does not have adequate timekeeping procedures In our review of
   140 employee timesheets, we noted that nine did not contain supervisory approval, seven
   were not signed by employees, and corrections on 26 were not initialed by the employee or
   supervisor. Article 4.c. of the General Provisions, of the Cooperative Agreement states that
   salaries,and wages charged directly to the agreement must be supported by timesheets signed
   by the employee. Sound internal controls dictate that, at a minimum, employees and
   supervisors initial all timesheet changes.

Walker & Company, LLP Response

Walker & Company, LLPYspolicies and procedures require employees and supervisors sign and
initial all tirnesheets and any changes thereto. Although there were instances when these
procedures were not adhered to, noncompliance did not cause material errors. During the
preparation of our quarterly Financial Status Reports, we reconciled the timesheets to the time
reporting system and to the detail activities performed during the period to ensure that all time
charged per the Cooperative Agreement was proper. This process ensures that all time is
properly charged to the project. Because we have an established policy and procedure for
timesheet preparation, approval and review for billing, the exceptions noted, though reportable
 conditions, are not material weaknesses in our opinion. The exceptions noted did not result in
 erroneous charges or billings under the Cooperative Agreement.

2. Walker & Company, LLP does not have adequate procedures related to travel expense
   reports. In our review of 32 employee travel expense reports, we noted that six did not
   contain supervisory approval, corrections on four were not initialed by the employee or
   supervisor, and one was not signed by the employee. Sound internal controls dictate that, at
   a minimum, employees and supervisors sign all travel expense reports and initial all changes.

 Walker & Company, LLP Response

 Walker & Company, LLPYspolicies and procedures require employees and supervisors to sign
 all expense vouchers and initial all changes. Although there were instances when these
 procedures were not adhered to, existence of the procedures reduces risk to a level that precludes
 material weaknesses from occurring. Employees travel expenses are reimbursed on a bi-weekly
 basis. Before the expense reimbursement is made, the project manager reviews the expenses and
 compares them to the activities performed to ensure that they relate to the project to which they
 were charged. This compensatory control ensures that all expenses reimbursed under the
 Cooperative Agreement are reasonable and supported. The exceptions identified, although a
 reportable condition, did not result in material misstatement or charges of travel expenses under
 the Cooperative Agreement. We have instituted a final review process by a member of senior
 management where expense vouchers will be scrutinized for proper signatures and support.
        APPENDIX B


THE CORPORATION'S RESPONSE
                                                                                        --   -
                                                                                             -



                                                                        CORPORATION

                                                                        FOR NATIONAL
                                                                                 S E R V I C E




      MEMORANDUM



      DATE:                 November 12, 1999

      TO:                   Luise Jordan, OIG
                            .%-.h  ;-
                                     '   -.; 4 -
                                              a    '
                                                        /



      FROM:                 Simon G. Woodard, Director, Procurement Services

      CC:                   Wendy Zenker, COO
                            Wilsie Minor, Assistant General Counsel

      SUBJECT:              Request fcr comments on Draft Report 00-03, Audit of Corporation for
                            Natimal Service Cooperative Agreeme~twith Walker and Company, LLP


      We have reviewed the draft report pertaining to the performance of Walker International
      under cooperative agreement 96CA000001. Our review was limited to illformation
      contained in the report arid we have not yet conducted a comprehensive review nor
      obtained comments from Walker personnel. We will do so during the audit resolution
      process and will address the findings and recommendations in the final management
      decision. Therefore, we are not providing detailed comments at this time.




NATIONAL SERVICE: GETTING THINGS DOME                                                                                  .
                                                                                             1201 New York Avenue, N W Washmgton, D C 20525
  1   11    .   I   I   I   I   I   .\   a   10   it/   \(   11   ((1   ,   L   ,~I;I                            -
                                                                                             telephone 202-606-5000 webs~tewwwnat~onalsemceorg
